■%

No .

IN THE
SUPREME COURT OF THE UNITED STATES

CHESTER ALAN STAPLES-PETITIONER
US .
FIFTH CIRCUIT-RESPONDANT
ORDER:
FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS

Denying Chester Alan Staples,

Texas prisoner#01B53049,

motion

for certificate of appealability to appeal the district court's
denial of his 2B U.S.C.§2254 application challenging his convic­
tions for murder and unlawful possession of a firearm by a felon.

Chester A. Staples
#01 B 5 3 049
264 FM 347B
Huntsville, TX 77320

fJuZT/l
pro s e

Case: 19-40231

Document: 00515403926

Page: 1

Date Filed: 05/04/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40231

- .•:.

CHESTER ALAN STAPLES,
Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Eastern District of Texas

ORDER:
Chester Alan Staples, Texas prisoner # 01853049, moves for a certificate
of appealability (COA) to appeal the district court’s denial of his 28 U.S.C.
§ 2254 application challenging his convictions for murder and unlawful
possession of a firearm by a felon. He contends that the district court erred in
applying the Antiterrorism and Effective Death Penalty Act’s deferential
framework and denying his claims that the trial court erred with respect to its
jury instructions and that trial counsel was ineffective.
A COA may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When
the district court has rejected a constitutional claim on the merits, a COA will
be granted only if the prisoner “demonstrate[s] that reasonable jurists would
APPENDIX A

1

Case: 19-40231

Document: 00515403926

Page: 2

Date Filed: 05/04/2020

No. 19-40231
find the district court’s assessment of the constitutional claims debatable or
wrong” or that the issues presented are “adequate to deserve encouragement
to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal
quotation marks and citation omitted). Staples fails to make the required
showing. See id.
Although Staples raised numerous other claims in his § 2254
application, he has failed to adequately brief them in his COA motion. Those
claims are therefore abandoned. See McGowen v. Thaler, 675 F.3d 482, 497
(5th Cir. 2012); Yohey v. Collins, 985 F.2d 222, 225 "(5th Cir. 1993).
Accordingly, Staples’s motion for a COA is DENIED.

/s/James E. Graves. Jr.
JAMES E. GRAVES, JR.
UNITED STATES CIRCUIT JUDGE.

(.

2

No .

IN THE
SUPREME COURT OF THE UNITED STATES

CHESTER ALAN STAPLES --PETITIONER
US .
FIFTH CIRCUIT-RESPONDANT
ORDER OF DISMISSAL
FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

Dismissing Chester Alan Staple s' pro se filed petition for writ
of habeas corpus under 28 U.S.C.§2254 alleging the illegality
of his convictions.

Chester A. Staples
#01853049
264 FM 3478
Huntsville, TX 77320
pro s e

Case ?.>:16-cv-01041-RC-JDL Document 51 Filed 02/25/19 Page 1 of 4 PagelD #: 1296.
s.

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHESTER ALAN STAPLES, #1853049

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:16cvl041

ORDER OF DISMISSAL
Petitioner Chester Alan Staples (“Staples”), pro se, filed this petition for writ of habeas
corpus under 28 U.S.C. § 2254 alleging the illegality of his convictions. The cause of action was
referred to the United States Magistrate Judge, the Honorable John D. Love, for findings of fact,
conclusions of law, and recommendations for the disposition of the petition.
After a review of the record and pleadings, Judge Love issued a Report, (Dkt. #31),
recommending that Petitioner’s petition be dismissed, with prejudice, and that Petitioner also be
denied a certificate of appealability sua sponte. Petitioner has filed timely objections, (Dkt. #36).
As an initial matter, a party objecting to a Magistrate Judge’s Report must specifically
identify those findings to which he or she objects. Frivolous, conclusory, or general objections
need not be considered by the District Court. See Nettles v. Wainwright, 677 F.2d 404, 410 n. 8
(5th Cir. 1982) (en banc), overruled on other grounds by Douglass v. United Servs. Auto. Ass’n,
79 F.3d 1415 (5th Cir. 1996) (en banc).
Here, Petitioner’s objections are general and conclusory. Petitioner made no objections to
any of Judge Love’s specific findings or analyses contained in the Report—other than to say he
disagrees and has shown a constitutional violation. Specifically, Petitioner begins by remarking
that he “objects to all adverse rulings in the Report and Recommendation.” (Dkt. #36, pg. 1).
Petitioner also states that he “contends that all arguments, show color and substantial merit,
1
APPENDIX 0

Case 5:16-cv-01041-RC-JDL Documents! Filed 02/25/19 Page 2 of 4 PagelD #: 1297
V

[therefore] the objection still stands.” Id. Because Petitioner does not address specific findings
articulated in the Report, his objections are general in nature and will be overruled.
The crux of Petitioner’s objections is his disagreement with Texas state habeas procedures.
Specifically, Petitioner opines that he “objects to the Report and Recommendation due to the fact
that the Court’s adjudication is based on ‘No Action,’ ‘No Hearing,’ ‘No conclusions of law,’ .and
‘No findings of facts.’ The Report and Recommendation is unsupported.” (Dkt. #36, pg. 3).
Petitioner then proceeds, for about eight pages, to explain how the Texas state habeas procedures,
under Article 11.07, are inadequate because the state habeas court did not make findings of fact
and conclusions of law. Petitioner then highlights how there was a dissenting opinion within his
habeas adjudication—which is nonbinding and only argues that Petitioner be appointed post­
conviction counsel to better articulate his claims. (Dkt. #18, pg. id. #1114-15).
However, it is well-settled than any alleged infirmities in state habeas proceedings are not
grounds for federal relief. See Haynes v. Quarterman, 526 F.3d 189,195 (5th Cir. 2008); see also
Rudd v. Johnson, 256 F.3d 317,320 (5th Cir. 2001) (“That is because an attack on the state habeas
proceeding is an attack on a proceeding collateral to the detention and not the detention itself.”).
Furthermore, the failure to enter express findings of fact does not preclude deference under
the AEDPA because “[a]s a federal court, we are bound by the state habeas court’s factual findings,
both implicit and explicit.” See Young v. Dretke, 356 F.3d 616, 629 (5th Cir. 2004); see also
Becerril v. Quarterman, 2007 WL 1701869 *4 (S.D.Tex.—Houston Jun. 11, 2007) (“The Texas
Court of Criminal Appeals adopted the trial court’s findings when it denied relief. A federal court
is bound by the state habeas court’s factual findings, both implicit and explicit.”) (citation omitted).
In Texas, when the Court of Criminal Appeals denies a state habeas petition—with or
without an order or opinion—the “denial” means that the court addressed and rejected the merits

2

Case 6:16-cv-01041-RC-JDL Document 51 Filed 02/25/19 Page 3 of 4 PagelD #: 1298.

of a particular claim. See Ex parte Torres, 943 S.W.2d 469, 472 (Tex.Crim.App. 1997) (“In our
writ jurisprudence, a ‘denial’ signifies that we addressed and rejected the merits of a particular
claim while a ‘dismissal’ means that we declined to consider the claim for reasons unrelated to the
1 •

claims merits.”); Miller v. Johnson, 200 F.3d 274,281 (5th Cir. 2000) (“Under Texas law, a denial
of relief by the Court of Criminal Appeals serves as a denial of relief on the merits of the claim.”).
Here, the Texas Court of Criminal Appeals denied Petitioner’s state habeas application.
(Dkt. # 18, pg. id. #1004). Accordingly, the state court addressed and rejected the merits of his
habeas claims—irrespective of whether it entered explicit findings of fact and conclusions of law.
Because the AEDPA requires federal courts to provide deference to the state habeas courts’ express
and implicit findings, Petitioner’s objections are meritless.
The Court has conducted a careful de novo review of record and the Magistrate Judge’s
proposed findings and recommendations. See 28 U.S.C. §636(b)(l) (District Judge shall “make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.”). Upon such de novo review, the Court has
determined that the Report of the United States Magistrate Judge is correct and the Petitioner’s
objections are without merit. Accordingly, it is
ORDERED that Petitioner’s objections, (Dkt. #36), are overruled and the Report of the
Magistrate Judge, (Dkt. #31), is ADOPTED as the opinion of the District Court. It is also
ORDERED that the above-styled habeas action is DISMISSED WITH PREJUDICE.
Moreover, it is
ORDERED that Petitioner Staples is DENIED a certificate of appealability sua sponte.
Finally, it is

3

Case 6:16-cv-01041-RC-JDL Document 51 Filed 02/25/19 Page 4 of 4 PagelD #: 1299.
■

ORDERED that any and all motions which may be pending in this action are hereby
DENIED.
So ORDERED and SIGNED February 25,2019.

Ron Clark, Senior District Judge

V

4

N□ .

IN THE
SUPREME COURT OF THE UNITED STATES

CHESTER ALAN STA PLES-PETITIONER
US .
FIFTH CIRCUIT-RESPONDANT

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION

Petitioner Chester Alan Staples filed a petition, pro se,

for

writ of habeas corpus under 28 U.S.C§2254 alleging therillegality
of his convictions. The cause of action was refered for findings
of fact, conclusions of law, recommendations for the disposition
of the petition .

Chester A. Staples
#01853049
264 FM 3478
Huntsville, TX 77320

pro se

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 1 of 20

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHESTER ALAN STAPLES, #1853049

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:16cvl041

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRTE JUDGE
Petitioner Chester Alan Staples (“Staples”), pro se, filed this petition for writ of habeas
corpus under 28 U.S.C. § 2254 alleging the illegality of his convictions. The cause of action was
referred for findings of fact, conclusions of law, and recommendations for the disposition of the
petition.
I. Procedural Background
A jury convicted Staples of one count of murder and one count of unlawful possession of
a firearm. In 2013, he was sentenced to fifty-five years’ imprisonment on the murder count and to
fifty years’ imprisonment for the unlawful possession charge, both to be served concurrently. His
convictions were affirmed on direct appeal in September 2014. See Staples v. State, 2014 WL
4637966 (Tex.App.—Tyler 2014). Staples then filed a petition for discretionary review, which
was denied and then subsequently denied on rehearing in May 2015. The United States Supreme
Court denied his petition for certiorari in November 2015, as well as his petition for rehearing.
Staples then filed a state habeas application, which was denied without a written order in June
2016. This federal habeas petition, filed in September 2016, follows.
II. Factual Background
The Twelfth Court of Appeals summarized the facts of the case as follows:
1
APPENDIX G

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 2 of 20

The evidence at trial showed that on May 25,2010, Appellant went to the home of
the victim, Tracey Polley, to retrieve a lawn mower that he had sold Polley and for
which he had received only partial payment. The two had previously argued about
the mower over the phone, and Polley told Appellant that he would shoot him if he
came to get it. Appellant, a convicted felon, obtained a handgun before going to
the residence.
As Appellant was preparing to load the mower, Polley came out of the house with
a loaded handgun. After a brief argument outside the residence, the two men
opened fire on each other. Appellant was shot through the hand and in the eye.
Polley was shot five times and died before paramedics arrived. The evidence is
conflicting as to who fired first.
The trial court’s jury charge included an instruction on self-defense. Appellant
requested an additional instruction on the defense of necessity, but the trial court
denied his request. Ultimately, the jury found Appellant “guilty” of murder and
unlawful possession of a firearm. The jury assessed his punishment at
imprisonment for fifty-five years and fifty years, respectively. This appeal
followed.
Staples, 2014 WL 4637966 at *1.
III. Staples’s Federal Habeas Petition and the Response
Staples raises thirteen claims for relief, some of which are related. He claimed that the trial
court abused its discretion by (1) denying his request for a necessity instruction; (2) including an
instruction concerning unlawfully carrying a weapon; (3) overruling thirty-one of his challenges
for cause during jury selection; (4) allowing the State to speak to its own witnesses outside the
room before questioning; and (5) failing to explain to the jurors the exceptions to the jury
instructions regarding provocation.
Additionally, Staples maintains that counsel was ineffective for (6) failing to argue the trial
court’s omission of the necessity instruction on direct appeal; (7) failing to confer with him about
trial strategies; (8) failing to object to the State referring to the case as “the murder of Tracey
Polley”; (9) arguing the merits of a necessity defense poorly; (10) failing to object to the State’s
improper questioning of potential jurors; (11) failing to “rectify” the State’s discovery violation;

2

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 3 of 20

v'

(12) failing to articulate an opening statement; and (13) failing to move for a jury instruction
regarding any lesser-included offenses.
In response to his petition, Respondent asserts that Staples failed to present constitutional
claims necessary for habeas review, raised claims conclusively refuted by the record, and presented
meritless arguments. Staples then filed a reply, to which he elaborated on his claims and
specifically addressed each of Respondent’s assertions.
IV. Standard of Review
1. Federal Habeas Review
The role of federal courts in reviewing habeas corpus petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
federal constitutional right; federal relief is unavailable to correct errors of state constitutional,
statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.”’) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court” to review error under state law. Wood v. Quarterman, 503 F.3d 408,414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which
imposed a number of habeas corpus reforms, a petitioner who is in custody “pursuant to the
judgment of State court” is not entitled to federal habeas corpus relief with respect to any claim
that was adjudicated on the merits in State court proceedings unless the adjudication of the claim—

4

1. resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or

3

Case: 6:16-cv-01041-RC-JDL
iX

nr

Document #: 31-1

Date Filed: 11/28/2017

Page 4 of 20

ip
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.

cy

28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the
doubt.” See Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also
Cardenas v. Stephens, 820 F.3d 197, 201-02 (5th Cir. 2016) (“Federal habeas review under the
AEDPA is therefore highly deferential: The question is not whether we, in our independent
judgment, believe that the state court reached the wrong result. Rather, we ask only whether the
state court’s judgment was so obviously incorrect as to be an objectively unreasonable resolution
of the claim.”). .Given the high deferential standard, a state court’s findings of fact are entitled to
a presumption of correctness and a petitioner can only overcome that burden through clear and
...................

■

-

i

............................. •

■■

................................

..................................... .....

-

—■ ■" '

■ ■

-.............................. .........

..................... ................................... 1.1.

M

i

i

—

—■■

'

■ ■ "

1

convincing evidence. Reed v. Quarterman, 504 F.3d 465, 490 (5th Cir. 2007).
2. Ineffective Assistance of Counsel

0.

fj

^

i

To show that trial counsel was ineffective, Staples must demonstrate both deficient

performance and ensuing prejudice. See Strickland v. Washington, 466 U.S. 668 (1984). In

i/’,V

evaluating whether an attorney’s conduct was deficient, the question becomes whether the
attorney’s conduct fell below an objective standard of reasonableness based on “prevailing norms
of practice.” See Loden v. McCarty, 778 F.3d 484,494 (5th Cir. 2016).
Moreover, to establish prejudice, the petitioner must show that there is a reasonable
probability that—absent counsel’s deficient performance—the outcome or result of the
proceedings would have been different. Id.; see also Reed v. Stephens, 739 F.3d 753,773 (5th Cir.
2014) (quoting Strickland, 466 U.S. at 687)). It is well-settled that a “reasonable probability” is
one that is sufficient to undermine confidence in the outcome of the proceedings. Strickland, 466
U.S. at 694. Importantly, the petitioner alleging ineffective assistance must show both deficient
4

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 5 of 20

performance and prejudice. See Charles v. Stephens, 736 F.3d 380,388 (5th Cir. 2013) (“A failure
to establish either element is fatal to a petitioner’s claim.”) (internal citation omitted). Given the
already highly deferential standard under the AEDPA, establishing a state court’s application
whether counsel was ineffective “is all the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011); see also Charles v. Stephens, 736 F.3d 380, 389 (5th Cir. 2013) (“Both the Strickland
standard and the AEDPA standard are highly deferential, and when the two apply in tandem,
review is doubly so.”) (internal quotations and citation omitted).
V. Discussion and Analysis
1. Claims of Trial Court Error
As an initial matter, the Court notes that Respondent has repeatedly asserted in its answer
that several of Staples’s claims, in which he contends that the trial court abused its discretion or
committed plain error, are not cognizable in his federal petition because such claims are solely
issues of state law. Respondent’s assertions suggest that it believes Staples’s claims of trial court
\

error are foreclosed under federal habeas review because such claims are always state issues.
Importantly, however, the Fifth Circuit has repeatedly held that claims of trial court error
may justify federal habeas relief if the error “is of such magnitude as to constitute a denial of
fundamental fairness under the due process clause.” See Krajcovic v. Director, 2017 WL 3974251

0- f.

at *6 (E.D. Tex. June 30, 2017) (quoting Skillern v. Estelle, 720 F.2d 839, 852 (5th Cir. 1983));
see also Brecht v. Abrahamson, 507 U.S. 619, 637-38 (1993) (To be actionable in federal court,
the trial court error must have “had substantial and injurious effect or influence in determining the
jury’s verdict.”). In other words, trial court error may constitute a due process issue, which
certainly is a federal issue. Accordingly, Staples’s claims of trial court error are not necessarily
foreclosed under federal habeas review.

5

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 6 of 20

A. Request for Necessity Jury Instruction
Staples argues that the trial court abused its discretion in denying his request for a necessity
instruction. Specifically, he maintains that the instruction must be given if there is evidence
sufficient to support the defensive theory. The Court’s failure to provide the instruction, he claims,
seriously impaired his ability to present the necessity defense.
However, this claim was specifically addressed, analyzed, and ultimately deemed
meritless in Staples’s direct appeal. The Twelfth Court of Appeals characterized this issue as
follows:
Necessity Defense
In his sole issue, Appellant [Staples] argues that the trial court erred in refusing to
submit a jury instruction on the defense of necessity. The state disagrees,
contending that Appellant is not entitled to an instruction on the defense because
the harm was not imminent when he armed himself with the firearm, and because
he placed himself in a dangerous situation.
The Texas Penal Code provides that
[c]onduct is justified if:
(1) the actor reasonably believes the conduct is immediately necessary to
avoid imminent harm;
(2) the desirability and urgency of avoiding the harm clearly outweigh,
according to ordinary standards of reasonableness, the harm sought to be
prevented by the law proscribing conduct; and
V

(3) a legislative purpose to exclude the justification purpose to exclude the
justification claimed for the conduct does not otherwise plainly appear.
Tex. Penal Code Ann. § 9.22 (West 2011).
The evidence shows that Polley threatened to shoot Appellant if he came for the
lawn mower. Appellant then obtained a gun and took it to Polley’s house. Based
on Polley’s threat, Appellant may have reasonably had a generalized fear of future
harm, but the undisputed facts show a complete absence of immediate necessity
6

Case: 6:16-cv-0104i-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 7 of 20

and imminent harm at the time he obtained the gun and took it to Polley’s house.
Therefore, any belief of Appellant that these actions were immediately necessary
to avoid imminent harm was unreasonable as a matter of law. See Miller v. State,
No. 02-11-00155-CR, 2013 WL 362792 at *8 (Tex.App.—Fort Worth, Jan. 31,
2013, pet. refd) (mem. op., not designated for publication) (no imminent harm
where appellant carried firearm into bar because he feared bouncer had been
involved in robbery of his girlfriend), cert, denied, 134 S.Ct. 640 (2013). Thus, the
evidence does not raise the first element of the necessity defense in regard to the
offense of unlawful possession of a firearm by a felon.

While some of the evidence is conflicting, we conclude that a rational juror could
accept the evidence as sufficient to prove that Appellant reasonably believed
shooting Polley was immediately necessary to avoid the imminent harm of being
shot again. Therefore, the evidence raises the first element of the necessity defense
in regard to the offense of murder.
We have carefully reviewed the record for any evidence that would support a
rational juror’s conclusion that the harm Appellant avoided clearly outweighed the
harm he inflicted. Appellant suggests no reason on appeal why his own death
would have been a greater harm than Polley’s, and we find no evidence in the record
to support such a conclusion. Therefore we conclude that the evidence does not
raise the second element required to raise the defensive issue of necessity in regards
to the offense of murder.
Staples, 2014 WL 4637966 at *1-4.
Essentially, the court found that the necessity defense was neither applicable to the murder
offense nor the unlawful possession of a firearm offense. With respect to the unlawful possession
offense, the court reasoned that there was no immediate necessity and imminent harm when Staples
retrieved a handgun and took it to Polley’s house. Similarly, regarding the murder, Staples failed
V

to demonstrate that the harm he sought to avoid—being shot again by Polley—outweighed the
harm he inflicted on Polley, which included shooting Polley five times and killing him. See, e.g.,
Rios v. State, 1 S.W.3d 135 (Tex.App.—Tyler 1999, pet. refd) (finding that appellant did not
demonstrate how his safety in prison, after being repeatedly attacked and threatened, outweighed
the safety of all inmates and prison employees regarding his necessity claim for possessing a

7

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 8 of 20

deadly weapon in prison). As a result, the appellate court found that the trial court did not abuse
its discretion in refusing to submit necessity instruction because Staples failed to meet all the
elements of the defense.
Staples has failed to demonstrate this state adjudication was unreasonable or contrary to
clearly established law. A review of the record demonstrates also that the appellate court’s
decision was not an unreasonable determination of the facts outlined in the state proceeding. For
these reasons, this claim is meritless and should be dismissed.
B. Instruction on Unlawfully Carrying a Weapon
Next, Staples contends that the trial court committed plain error by allowing “an instruction
to be presented to the jury that pertained to an alleged criminal act that was not presented to the
grand jury for indictment.” Specifically, he notes that his indictment was for murder, but the
charge of the court included the offense of unlawfully carrying a weapon, which is a misdemeanor.
He also notes that the statute of limitations expired on the weapon charge.
Nevertheless, this claim is refuted by the record: Staples’ indictment included the charge
for murder, count one, and then the charge of “intentionally or knowingly possess a firearm,” count
two. Furthermore, the charge of the court—which was presented to the jury before deliberations—
included the charge of murder and the unlawful possession of a weapon/firearm. Because the
indictment and the charge of the court are consistent with respect to Staples’s charges, it is unclear
v

how his indictment included a charge that was not within the indictment. See Ross v. Estelle, 694
F.2d 1008,1011 (5th Cir. 1983) (“Absent evidence in the record, a court cannot consider a habeas
petitioner’s bald assertions on a critical issue in his pro se petition, unsupported and unsupportable
by any else contained in the record.”).

S

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 9 of 20

C. Overruling Challenges for Cause
Staples asserts that “counsel for defendant entered challenges for cause on venire persons
in a total of 31 on the grounds that they acknowledged that they could not be fair. The court
..:.

overruled 30 of these challenges.”
However, as Respondent highlights, this exact claim was raised in his state habeas
application, which was denied without a written order. Consequently, this Court must give great
deference to the state court’s adjudication of this claim—whether accompanied by a written
/3 I $.CT.
refer To >?7 S.C7.
opinion or not. See Harrington v. Richter, 562 U.S. 86, 98 (2011) (“By its terms, §2254(d) bars
■id^..,-■

■

i

-—

—

.................................. —

■

■

■—

'■

■"

•

•'

1

■"

...................................... -—

relitigation of any claim ^adjudicated on the merits’^n state court, subject only to the exceptions
in §§2254(d)(l) and (2). There is no text in the statute requiring a statement of reasons.”).
Moreover, Staples failed to demonstrate that the state court’s adjudication of the claim was
unreasonable or contrary to federal law or precedent. Id. (“Where a state court’s decision is
unaccompanied by an explanation, the habeas petitioner’s burden still must be met by showing
there was no reasonable basis for the state court to deny relief.”); see also States v. Hall, 2017 WL
4422523 at *1 (5th Cir. Oct. 4,2017) (same). This claim should be dismissed.
D. State Conversing with a Witness
Next, Staples contends that the court abused its discretion by allowing the State to converse
with its own witness for thirty seconds outside of the courtroom, immediately prior to the witness’
V

testimony. Specifically, he denotes that permitting the State to “seemingly coach” its witness was
unprofessional and prejudicial, further remarking “[f]or the trial court Judge to let the Prosecutor
dominate the courtroom like a [Monarch] of some kind was abuse of discretion.”
As the Respondent asserts, again, this exact claim was addressed by the state habeas court
and denied. The state court’s denial should be given deference. See Woodford v. Visciotti, 537

9

™

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 10 of 20

U.S. 19,360 (2002) (explaining that §2254(d)’s standard is highly deferential, which demands that
state court decisions be given the benefit of the doubt.”) (internal citation omitted). Furthermore,
even without that deference, Staples’s claim is wholly conclusory: His claim rests on the
conclusion that the State “seemingly” coached the witness, of which he proffers no support or
evidence. Because mere conclusory statements do not raise or present constitutional issues, this
claim should be dismissed. See United States v. Jones, 614 F.2d 80 (5th Cir.), cert, denied, 446
U.S. 945(1980).
E. Provocation Instruction
Staples further maintains that the trial court committed plain error by giving the jurors an
incomplete instruction regarding provocation. Specifically, as he maintained in his state habeas
application, “the instruction did not properly advise the jury that the accused’s right of self-defense
would not necessarily be abridged by the fact that he carried arms to the scene of difficulty.”
As Staples raised this claim in his state habeas application, which was denied, the
adjudication of that claim is state court must be given great deference. The crux of his claim is
that the jury was never instructed on the principle that simply because an individual carries a
weapon,

that

individual

may

not

exercise

his

or

her

right

to

self-defense.

However, Staples’s characterization of this legal “principle” is misguided and omits crucial
facts. Staples arrived to the situation while he unlawfully possessed a weapon, which does not
justify the lawful use of force when he sought discussion or explanation about his lawn mower.
Under the pertinent portion of the Texas statute, the use of force is not justified:

(4) if the actor provoked the other’s use or attempted use of unlawful force, unless:
(A) the actor abandons the encounter, or clearly communicates to the other
his intent to do so reasonably believing he cannot safely abandon the
encounter; and
10

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 11 of 20

(B) the other nevertheless continues or attempts to use unlawful force
against the actor; or
(5) if the actor sought an explanation from or discussion with the other person
concerning the actor’s differences with the other person while the actor was:
(A) carrying a weapon in violation of Section 46.02; or
(B) possessing or transporting a weapon in violation of Section 46.05
§ 9.31, Tex. Penal Code (2007) (emphasis supplied). Accordingly, because Staples was a
convicted felon—prohibited from carrying a weapon under section 46.02—who sought an
explanation/discussion from Polley about the lawn mower while he unlawfully carried his weapon,
his use of force was not justified—even if provoked. The record demonstrates that the jury was
given this instruction on self-defense, rendering it unclear how the jury was not advised regarding
provocation. This claim should therefore be dismissed.
2. Claims of Ineffective Assistance
Staples also raised eight claims of ineffective assistance of counsel, for which he must
demonstrate both counsel’s deficient performance and ensuing prejudice.
A. Appellate Counsel
First, Staples contends that appellate counsel was ineffective on direct appeal because he
failed to raise the “confession and avoidance” doctrine. He maintains that even though the doctrine
was the sole issue on direct appeal, it “should have been properly addressed.”
As an initial matter, this exact claim was presented to the state habeas court and was denied.
a'

Therefore, Staples must overcome the difficult burden in demonstrating that the decision was
unreasonable or contrary to federal law. Second, the claim is conclusively refuted by the record:
Appellate counsel raised the issue of necessity on direct appeal, which embraces the “confession
and avoidance” doctrine under Texas law. Accordingly, for reasons explained below, appellate
counsel cannot be ineffective for failing to do something in which he, in fact, did.
11

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 12 of 20

Under Texas law, the “confession and avoidance” doctrine stems from the defenses of
justification, which include both self-defense and the necessity defense. See Jordan v. Stephens,
2014 WL 4379086 at *4 (N.D. Tex.—Wichita Falls, Sept. 3, 2014).

The “confession and

avoidance” doctrine, generally, requires the defendant to admit to all elements of the charge,
including the act/omission and the requisite mental state. See Juarez v. State, 308 S.W.3d 398,
403 (Tex.Crim.App. 2010). In other words, much like the self-defense and necessity defense, the
“confession and avoidance” doctrine requires that the defendant admit that he committed the
conduct but was justified in doing so.
However, because the defense of necessity embraces the “confession and avoidance”
doctrine, which has already been found inapplicable to his defense, the claim once again fails.
Counsel cannot be ineffective for failing to raise a meritless issue or objection. See Green v.
Johnson, 160 F.3d 1029,1037 (5th Cir. 1998); Turner v. Quarterman, 481 F.3d 292,298 (5th Cir.
2007). As mentioned, the appellate court found the necessity defense inapplicable to both the
murder and weapon charge because (1) there was no immediate necessity or harm that required
Staples to bring a handgun with him to the victim’s residence; and (2) Staples could not illustrate
that the harm he sought to avoid outweighed the harm he inflicted on the deceased. Accordingly,
because the “confession and avoidance” doctrine was raised on direct appeal through the necessity
issue—which was meritless at the outset—this claim must fail. See Juarez, 308 S.W.3d at 406
V

(“The doctrine of confession and avoidance applies to the Penal Code’s necessity defense.”).
B. Trial Strategies
Next, Staples maintains that counsel was ineffective for failing to confer with him
regarding potential trial strategies. Specifically, he states that counsel “never conferred with me
prior to trial (other than in the courtroom) about developing a strategic line of defense to be

12

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 13 of 20

presented at trial.” He notes that if counsel would have conferred with him, counsel “could have
prepared some type of defense,” further highlighting that three witnesses would have testified that
he was “attacked by the deceased.”
First and foremost, Staples offers no evidence or proof that counsel never once conferred
with him regarding trial strategies. His declaration that counsel “didn’t know what to do. So he
done nothing at all,” is wholly conclusory and does not raise a constitutional issue, and can be
dismissed for this reason alone.
Nevertheless, this claim reverts back to Staples main complaint: His conduct, which
resulted in Polley’s death, was justified because he was attacked. However, this issue was
presented at trial, on direct appeal, and within his state habeas application—and was rejected each
time. The defense of necessity was not applicable in Staples’s case. To the extent that Staples
argues that the reason why the necessity instruction was not given to the jury was because of
counsel's poor argument, the Court notes that the Constitution requires only that a criminal
defendant receive adequate counsel—not error-free or perfect counsel. See U.S. v. Freeman, 818
F.3d 175, 178 (5th Cir. 2016); Emery v. Johnson, 139 F.3d 191, 197 (5th Cir. 1997) (“The Sixth
Amendment does not guarantee criminal defendants the right to error-free representation.”).
C, Failing to Object to the “Murder of Tracy Poflev”
Staples contends that counsel was ineffective for failing to object to the State’s repeated
V

characterization of his case as “the murder of Tracy Polley.” He argues that the “prosecutor was
leading the jury down a path of destruction for the defense,” by muttering this comments.
Again, this claim was previously raised in his state habeas application and is wholly
conclusory. While he contends that these comments were prejudicial, he fails to explain or identify

13

Case: 6:16-cv-01041-RC-JDL

Document#: 31-1

Date Filed: 11/28/2017

Page 14 of 20

how. Staples provides no details or specifics as to how these comments harmed his defense, which
does not raise a constitutional issue. This claim should be dismissed.
D. Arguing Poorly
While this claim is not entirely clear, it seems that Staples asserts that counsel was
ineffective for poorly arguing the need for a necessity instruction. Specifically, he denotes that
“when trial court Judge questioned counsel for defendant about matters related to the requested
instruction on the ‘defense of necessity,’ counsel for [the defendant’s] response was ‘I do not
know.’”

This claim remains meritless, as the necessity defense was inapplicable to Staples’s case.
Even if it were applicable, as explained above, the Constitution does not guarantee perfect
representation. Accordingly, even if counsel argued for the instruction poorly or incorrectly, this
claim would still fail.
E. Improper Juror Questioning
Staples contends that counsel was also ineffective for failing to object to the following line
of questioning regarding intent during voir dire:
STATE: So how does the State prove or show what someone intended to do?
POTENTIAL JUROR: Evidence you make when you investigate the crime. If there’s
DNA or whatever kind of evidence that he left, maybe a bullet, the shell or whatever you
may have.
STATE: Okay. So that proves he did it. I guess that would also prove his intent to do so,
would you agree?
Potential Juror: Yes. He planned it.
According to Staples, counsel “should not have let this happen without an objection.” He
elaborates no further.

14

Case: 6:16-cv-01041-RC-JDL

Document#: 31-1

Date Filed: 11/28/2017

Page 15 of 20

However, as Respondent maintains, Staples fails to point to a reason for which an objection
would have been required.

Simply stating—without more—that the State’s questioning of

potential jurors was prejudicial or harmful is conclusory and speculative, at best. This claim should
be dismissed.
F. Discovery Violation
Staples asserts that counsel was ineffective for failing to object to the State’s purported
discovery violation. Specifically, Staples highlights that the trial court issued a discovery order
that required the State to provide the defense with evidence and documents within fifteen days
before trial; however, on the second day of trial, the State informed the court and the defense that
it had just received a patrol video from the scene, which had not been in the State’s file. The court
ended proceedings early to allow the defense to review the tape. Staples maintains that this
constitutes a discovery violation that should have been rectified, as the tape had not been turned
over within fifteen days before trial. Moreover, he states that “for counsel’s entire time to review
and investigate the contents of the video to consist of one night is not adequate for preparation of
defensive action in a murder trial, or a trial for any kind for that matter.”
First and foremost, Staples’s assumption that counsel could not adequately review the
contents of the tape within one evening is purely speculation. Second, Staples cannot show that
an objection on this basis would have been meritorious because the State had just received the tape
that morning and informed the court immediately. Likewise, because defense counsel had ample
time to review the tape. Staples cannot demonstrate that the failure to object at that moment harmed
his case. In fact, Staples provides no support for his contention that counsel’s failure to object was
harmful to his case and does not identify what counsel should have done to “rectify” the situation.
This claim should be dismissed.

15

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 16 of 20

G. Failure to Articulate an Opening Statement
Staples also believes that counsel’s failure to give an opening statement was ineffective.
He argues that “counsel for defendant did not attempt to inform the jury of any nature of defense”
and “to make no opening statement falls below the standards of Strickland, and this deficient
performance resulted in a conviction.”
Nonetheless, contrary to Staples’s contention, the failure to present an opening statement
does not necessarily constitute ineffective assistance of counsel—for counsel’s decision to render
an opening statement is a strategic choice. See Murray v. Maggio, 736 F.2d 279, 283 (5th Cir.
1984) (“The decision whether to present an opening statement falls within the zone of trial
strategy.”); Gilliard v. Scroggy, 847 F.2d 1141, 1147 (5th Cir. 1988) (“Gilliard’s counsel chose
not to make an opening statement. That is the essence of a strategic choice.”). Because strategic
choices are generally not the basis for constitutionally ineffectiveness unless the choices permeate
the entire trial with obvious unfairness, Staples’s claim fails. Crane v. Johnson, 178 F.3d 309,314
(5th Cir. 1999) (quoting Garland v. Maggio, 111 F.2d 199, 206 (5th Cir. 1983)). Staples has
presented nothing to demonstrate that counsel’s failure to give an opening statement permeated
throughout his trial. Moreover, as this claim was raised in his state habeas application, which was
denied, Staples failed to demonstrate that the state court’s denial was unreasonable or contrary to
federal law. This claim should be dismissed.
H. Lesser-Included Offense
In his final claim, Staples argues that counsel was ineffective for failing to seek an
instruction regarding a lesser-included offense, particularly the offense of manslaughter.
However, any request for a manslaughter instruction would have undermined the defense
theory at trial. In Texas, a person commits manslaughter if he or she recklessly causes the death

16

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 17 of 20

of another. See Tex. Penal Code Ann. § 19.04 (2010). By arguing self-defense, the defendant is
necessarily asserting that his actions were justified and, therefore, he or she did not act recklessly.
SeeAlonzov. State, 353 S.W.3d 778,782 (Tex.Crim.App. 2011). (“An assertion of a [self-defense]
justification defense is an assertion that the defendant’s actions were justified. An assertion that a
defendant acted recklessly is an assertion that the defendant was aware of and consciously
disregarded a substantial and unjustifiable risk in gross deviation from the standard of care that an
ordinary person would have exercised in those same circumstances. A fact-finder therefore cannot
find that a defendant acted recklessly and in self-defense.”).
Therefore, Staples cannot also claim that his justified actions were reckless. If Staples was
justified in shooting Polley in self-defense, then it stands to reason that his actions in doing so
would not have been reckless or without conscious regard. See Alonzo, 353 S.W.3d at 782 (“The
cases cited by the Court of Appeals for the proposition that ‘Texas courts have routinely noted that
an individual cannot recklessly act in self-defense’ all dealt with murder defendant who argued
self-defense and then requested that the jury be charged with the lesser-included offense of
manslaughter. The very reason for denying the manslaughter charges was that the defendants’
evidence was that in committing the homicide, they acted intentionally in self-defense, not merely
recklessly. We do not call these cases into question.”) (internal citations omitted).
Because the defense theory at trial was self-defense, Staples cannot show that he was
prejudiced by counsel’s failure to request a manslaughter instruction—which would have been
antithetical to the defense’s case. Staples cannot show that the outcome of the proceedings would
have been different had counsel requested an instruction that would have been inconsistent with
the articulated defense theory. See, e.g., Okonkqwo v. State, 398 S.W.3d 689,697 (Tex.Crim.App.
2013) (“Under the record of the case, we conclude that counsel was not objectively unreasonable

17

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 18 of 20

by failing to request an instruction on mistake of fact because that theory was inconsistent with a
theory that counsel advanced at trial, and it would have misled the jury as to the State’ s burden of
proof.”); Hamner v. Deputy Secretary of Fla. Dept, of Corrections, 438 Fed.App’x 875, 880-82
(11th Cir. 2011) (Notably, Hamner’s trial counsel was able to elicit information from witnesses
about the victim’s mental health issues before her prior rape. The defense’s theory of the case,
however, did not rely heavily upon these facts. Instead, the defense argued that the victim
intentionally fabricated the rape story because he feared she would lose her job. Evidence that, at
the hospital, the victim appeared delusional and possibly was having a flashback to the earlier rape
would have undermined that theory.”). For these reasons, this claim should be dismissed.
VI. Conclusion
Staples has failed to demonstrate that the state habeas court’s adjudication of his claims
resulted in a decision that was contrary to or involved an unreasonable application of clearly
established federal law, as determined by the United States Supreme Court, or resulted in a
decision based on an unreasonable determination of the facts in light of the evidence presented in
the state court proceeding. His application for federal habeas corpus relief is thus without merit.
VII. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Petitioner has not yet filed a notice of appeal, the
court may address whether he would be entitled to a certificate of appealability. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
of appealability because “the district court that denies a petitioner relief is in the best position to

18

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 19 of 20

determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”
and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the
district court denied relief on procedural grounds, the petitioner seeking a COA must further show
that ‘jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012)).
Here, Staples failed to present a substantial showing of a denial of a constitutional right or
that the issues he has presented are debatable among jurists of reason. He also failed to demonstrate
that a court could resolve the issues in a different manner or that questions exist warranting further
proceedings. Accordingly, he is not entitled to a certificate of appealability.
RECOMMENDATION
For the foregoing reasons, it is recommended that the above-styled application for the writ
of habeas corpus be dismissed with prejudice. It is further recommended that Petitioner Staples
be denied a certificate of appeal sua sponte.

19

Case: 6:16-cv-01041-RC-JDL

Document #: 31-1

Date Filed: 11/28/2017

Page 20 of 20

Within fourteen (14) days after receipt of the Magistrate Judge's Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.
A party's failure to file written objections to the findings, conclusions and
•

recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
United Servs. AutoAss'n., 79 F.3d 1415,1430 (5th Cir. 1996) (en banc), superseded by statute on
other grounds, 28 U.S.C. § 636(b)(1) (extending the time to file objections from ten to fourteen
days).

So ORDERED and SIGNED this 28th day of November, 2017.

UNITED STATES MAGISTRATE JUDGE

20

N□ .

IN THE
SUPREME COURT OF THE UNITED STATES

No. 1 9-40231
Chester Alan Staples,

Petitioner-Appe11 ant

V.
Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions division,
Respondant-Appellee

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Petition for a Writ of Mandamus
to the United States District Court Tor the
Eastern District of Texas

Chester A. Staples
#01 B5 3049
264 FM 347B
Huntsville, TX 77320

pro s e

Case: 19-40231

Document: 00515427418

Page: 1

Date Filed: 05/26/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
•

•

No. 19-40231
CHESTER ALAN STAPLES,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Petition for a Writ of Mandamus
to the United States District Court for the
Eastern District of Texas
Before HAYNES, GRAVES, and ENGELHARDT, Circuit Judges.
PER CURIAM:
This panel previously denied Appellant’s motion for certificate of
appealability.

The

panel

has

considered

Appellant's

reconsideration. IT IS ORDERED that the motion is DENIED.

1
APPENDIX D

motion

for

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

May 19, 2020
#01853049
Mr. Chester Alan Staples
CID Estelle Unit
264 FM 3478
Huntsville, TX 77320-3320
No. 19-40231

Chester Staples v. Lorie Davis, Director
USDC No. 6:16-CV-1041

Dear Mr. Staples,
Your petition for rehearing filed on May 18, 2020 has been accepted
in its present form but is being treated as a motion for
reconsideration.
A petition for panel rehearing of an
administrative order is not allowed.

Sincerely,
LYLE W, CAYCE, Clerk

By: __________ ________
____
Monica R. Washington, Deputy Clerk
504-310-7705
cc:
Ms. Cara Hanna
Mr. Benjamin Graham Lancaster

( A P X p-2 )

No .

IN THE
SUPREME COURT OF THE UNITED STATES

IN THE COURT OF CRIMINAL APPEALS
OF Texas
NO. UR-B5 ,1 B7-01
EX PARTE CHESTER ALAN STAPLES, Applicant

DENIAL' AND DISSE'.NTING ’OPINION • i
ON APPLICATION FOR WRIT OF HABEAS CORPUS
CAUSE NO. 3 0 9 7 9-A IN THE 3RD JUDICIAL DISTRICT COURT
FROM ANDERSON COUNTY

Chester A. Staples
#01 B5 3 04 9
264 FM 3478
Huntsville, TX 77320

pro s e

/

i

!

JUDGE MEYERS NOT PARTICIPATING
CHESTER ALAN STAPLES
ESTELLE UNIT - TDC # 1853049
264 FM 3478
HUNTSVILLE, TX 77320-3322

APPENDIX E

1

Abel Acosta, Clerk

rv;

SHARON KELLER
PRESIDING JUDGE

Court of Criminal Appeals
P.O. BOX 12308, CAPITOL STATION
AUSTIN, TEXAS 78711

LAWRENCE E. MEYERS
CHERYLJOHNSON
MIKE KEASLER
BARBARA P. HERVEY
ELSA ALCALA
BERT RICHARDSON
KEVIN P. YEARY
DAVID NEWELL

ABEL ACOSTA
CLERK
(512) 463-1551

SIAN SCHILHAB
GENERAL COUNSEL
(512)463-1600

JUDGES

June 29, 2016
Chester Alan Staples
Estelle Unit - TDC # 1853049
264 FM 3478
Huntsville, TX 77320-3322
Re: STAPLES, CHESTER ALAN
CCA No. WR-85,187-01
Trial Court Case No. 30979-A
A dissenting opinion has issued in the above styled case.
Sincerely,

Abel ACosta, Clerk
cc: District Clerk Anderson County (DELIVERED VIA E-MAIL)
District Attorney Anderson County (DELIVERED VIA E-MAIL)

2
Supreme Court Building, 201 West 14th Street, Room 106, Austin, Texas 78701
Website www.txcourts.gov/cca.aspx

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO.-WR-85,187-01

EX PARTE CHESTER ALAN STAPLES, Applicant

ON APPLICATION FOR A WRIT OF HABEAS CORPUS
CAUSE NO. 30979-A IN THE 3rd JUDICIAL DISTRICT COURT
FROM ANDERSON COUNTY
Alcala, J., filed a dissenting opinion in which JOHNSON, J., joined.
DISSENTING OPINION
This is another claim of ineffective assistance of counsel addressed by this Court
based on pleadings that have been presented by a pro se litigant. I respectfully dissent from
this Court’s judgment that denies post-conviction habeas relief in this case. Instead, I would
remand this case to the habeas court for the appointment of counsel in the interests ofjustice,
permit counsel to amend applicant’s ineffectiveness-claim pleadings, and decide the ultimate
merits of applicant’s claim after those events.
As I have previously expressed in my dissenting opinions in Ex parte Garcia and Ex
parte Honish, in my view, an indigent pro se habeas applicant is entitled to the assistance of
appointed post-conviction counsel in the interests of justice whenever either the pleadings
3

Staples - 2
or the face of the record gives rise to a colorable ineffective-assistance claim. See Ex parte
Garcia, No. WR-83,681-01,2016 WL 1358947 (Tex. Crim. App. Apr. 6, 2016) (Alcala, J.,
dissenting); Ex parte Honish, No. WR-79,976-05,2016 WL 3193384 (Tex. Crim. App. June
8, 2016) (Alcala, J., dissenting). Without the appointment of counsel in those situations, I
have observed that it is unlikely that most pro se applicants will be able to properly present
their substantial ineffective-assistance claims, thereby increasing the likelihood that such
claims will be deprived of meaningful consideration on post-conviction review and, as a
result, that violations of defendants’ fundamental Sixth Amendment rights will go
unremedied. See Garcia, 2016 WL 1358947, slip op. at 2, 16; Honish, 2016 WL 3193384,
at *2. And, as I have observed in my prior opinions, the statutory basis for appointing
counsel to an indigent pro se habeas applicant in the interests of justice already exists in
Texas, but that statutory basis is seldom used by this Court in order to mandate the
appointment of counsel in these situations. See TEX. CODE CRIM. PROC. art. 1.051 (d)(3) (“An
eligible indigent defendant is entitled to have the trial court appoint an attorney to represent
him in ... a habeas corpus proceeding if the court concludes that the interests of justice
require representation.”).
Applying these principles here, and having liberally construed applicant’s pro se
pleadings to examine them for substantive merit rather than for technical procedural
compliance, I conclude that these pleadings are adequate to give rise to a colorable
ineffective-assistance claim that would justify the appointment of counsel in the interests of

4

Staples - 3
justice under the current Texas statutory scheme. In order to afford applicant his one full bite
at the apple in this initial habeas proceeding, and in order to ensure that applicant has been
fully afforded his Sixth Amendment rights, I would remand this case to the habeas court for
the appointment of post-conviction counsel and further proceedings as to applicant’s
ineffectiveness claims. Because the Court instead declines to do so and denies relief, I
respectfully dissent.
Filed: June 29, 2016
Do Not Publish

5

ND .

IN THE
SUPREME COURT OF THE UNITED STATES

Chester Alan Staples pro se,

Petitioner

US
The United States Court of Appeals
for the Fifth Circuit
REQUEST FOR CERTIFICATE -OF APPEALABILITY
WITH BRIEF IN SUPPORT

Chester A. Staples
#01853049
264 FM 3 4 7 B
Huntsville, TX 77320
pro s e

Case: 19-40231

Document: 00515021235

Page: 1

Date Filed: 07/02/2019

No. 19-40231

In the United Stetee Court of Appeals
for the Fifth Circuit
Comes now:
Chester Alen Stsples
pro ae

: COURT
RSCEJVEo'
O'
• ?>•

V

ml

02 2019

v%ff
Zf.cwc\Jg,

Request for Certificete of Appealability
with
Brief in support

Chester Alan Staples
pro se
264 FM 347B
Estelle Unit
Huntsville, Tx 77320

APPENDIX F

Case: 19-40231

Document: 00515021235

Page: 2

Date Filed: 07/02/2019

TABLE OF CONTENTS
page
i

Table of Contents
Statutes

ii

Rules

:.il

Constitutional Provisions

ill

Motion Requesting Certificate of Appealability

1,2

I. Introduction

1

II. Argument

1,2

I. Jurisdiction

3

II. Statement of the case / Questions Presented

3,4

Statement of the case

4,5

Statement of the facts

6

Summary of Argument

6,7,a

Standard of Revieu

0,9,10,12,13

Argument

9,10,11,12,13'

Conclusion

14

Exhibits

15,16,17,1B,19

i

Case: 19-40231

Document: 00515021235

Page: 3

Date Filed: 07/02/2019

TABLE OF AUTHORITIES
CASES

PAGE

Barefoot v. Estelle 463 US 880,893 (1983)
BouBr v. Quarterman 497 F.3d 459 (2007) CA5
Buxton v. Collins 925 F.3d 816,819 (1991) CA5

2
14
2

Party v. State 994 S.li). 2d 215,218 (Tx.Crim.App.Sen-Anton (1999) 6
Fuller v. Johnson 114 F.3d 491,495 (1997) CA5

2

Granger v. State 3 S.W. 3d 36,3B (Tx.Crim.App.) (1999)

6

Miller v. Edckrall 537 US 322,338 (2003)

2

Prou v. U.S. 199 F.ed 37,38 (1999) CA1

12

Sincox v. U.S. 517 F.2d 876 (1978) CA5

14

Stirone v. U.S. 212,217-18, 80 S.Ct. 270,273-74 (1960)

8

Strickland v. Washington 466 US 668 (1984)

14

U.S. ex-rel Barnard v. Lane 819 F.2d 798 (1978) CA7

12

United States v. Texier 474 F.2d 369,371 (1973) CA5

8.

U.S. Court of Appeals 960 F.2d 426 (1992) CA5

6

Walters v. State 247 S.lil. 3d 204,209 (Tex.Crim.App.) (2007)

6

STATUTES
28 USC § 2241(c)(3)

3

28 USC § 2253

1

28 USC § 2253(c)(2)

1.2
RULES

Tax. Code Criminal Proc.-Code and Rules Art. 12.02

ii

7

Case: 19-40231

Document: 00515021235

Page: 4

Date Filed: 07/02/2019

CONSTITUTIONAL PROVISIONS
page

U.S. Constitution, Amendment V

7,8,9,10,11 ,12

U.S. Constitution, Amendment VI

7,10,14

U.S. Constitution, Amendment VIV

i

!

iii

9

Case: 19-40231

Document: 00515021235

Page: 5

Date Filed: 07/02/2019

TO THE:

UNITED STATES COURT OF APPEALS
••

FIFTH CIRCUIT
OFFICE OF THE CLERK

No. 19-40231

Chester Staples v. Lorie Davis, Director
USDC No. 6:16-cv-1041

"MOTION REQUESTING CERTIFICATE OF APPEALABILITY
I.

INTRODUCTION

On February 25,2019 the UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF TEXAS, TYLER DIVISION ENTERED AN ORDER OF
!
I

DISMISSAL.
ORDERED that Petitioner's objections, (Dkt.#36), are overruled
and the Report of the magistrate Oudge, (Dkt.#31), is ADOPTED
ae the opinion of the District Court. It is also ORDERED that
the habeas action is DISMISSED WITH PREJUDICE.
Moreover, it is ORDERED that the Petitioner Staples is DENIED
a Csrtificata of Appealability sua sponta.
II.

ARGUMENT

LEGAL STANDARDS FOR CERTIFICATE OF APPEALABILITY
Under the Antiterrorism and Effective Death Penalty Act of 1996
("AEDPA"), a habeas petitioner cannot appeal from a District
Court judgement unless he obtains a Certificate of Appealability.
See 2B USC § 2253.
A petitioner is entitled to a Certificate of Appealability if
he Makes "substantial showing of the denial of a Constitutional
Right", 28 USC § 2253(c)(2). The U.5. Supreme Court in Barefoot

1

Case: 19-40231

Document: 00515021235

Page: 6

Date Filed: 07/02/2019

v. Estelle, 463 US 880,893 (1983), held that this means the ap­
pellant need not shoui that he mould prevail on the merits, but
must demonstrate that the issues are debatable among jurist of
reason; or that the questions are adequate to proceed further".
Miller-El v. Cockrell, 537 US 322,33B (2003). Therefore, doubts
as to whether to issue a Certificate of Appealability should
be resolved in favor of the appellant. Fuller v. Johnson, 114
F.3d 491,495 (5th Cir. 1997); Buxton v. Collins, 925 F.3d 816,
B1 9 96th Cir. 1991).

2

Case: 19-40231

Document: 00515021235

I.

Page: 7

Date Filed: 07/02/2019

JURISDICTION

The District Court far the Eastern District of Texas had juris­
diction over my habeas petition because I alleged that I bias
in custody of the state of Texas in violation of the Constitution
of the United States. See. 2B USC § 2241 (c)(3). This request
for a Certificate 0f Appealability is taken from the final judgement
entered on February 25,2019 dismissing the petition for a writ
of habeas corpus uith prejudice. I filed a Notice of Appeal uith
this Court and received a notice from the Clerk that stated:
"lile have docketed your appeal.*? March 22,2019. This Court has
jurisdiction to grant the Certificate of Appealability, under
2B U.S.C. 2253.
II.STATEMENT OF THE CASE: QUESTIONS PRESENTED
1. Whether the Court abused it’s discretion by denying a timely
requested instruction on, "Defense of Necessity."
2. Whether the Court committed plain drrar at trial by presenting
in the "Charge of the Court” an instruction on "Unlsufully
Carrying a Weapon", (Tax. Pen. Code § 46.02), when it bias not
presented to the grand jury for indictment.
3. Whether assistance of Counsel at trial use ineffective when
Counsel did not object to the instruction on "Unlawfully Carry­
ing a Weapon", £Te. Pen. Coda § 46.02), when it was not pre­
sented to the granf jury for indictment, which is a Class
A misdemeanor that the Statute of Limitations had also expired on.
4. Whether the jury instruction constructively Amended the indict­
ment by including the instruction (Tex. Pen.- Code § 46.02).

3

Case: 19-40231

Document: 00515021235

Page: 8

Date Filed: 07/02/2019

5. Whether the Court abused it's discretion by not dismissing
jurors that were "Challenged for Cause" uhsn they madB It
clear to the Court that they could not be fair.
6. Whether Counsel uas ineffective for not requesting an instruc­
tion on the lesser included offense of manslaughter.
7. Whether Assistance of Counsel uas ineffective for lack of
pre-trial investigation.
STATEMENT OF THE CASE
I, Chester Alan Staples, uas indictB.d for: Murder/Unl Pose of
a Firearm by a Felon, Counts 142. Filed for Record (2012 3UL
PM 12:59) G3#2 in Anderson County, Tx. Cause No. 30979. The trial
utas by jury and I uas found guilty on counts 142 on April 11,2013
and sentenced to confinement in the Texes Department of Criminal
Oustice on April 12,2013. Timely Notice of Appeal uas given to
the Court.
The

soIb

issue presented an Direct Appeal uas the denial of the

requested instruction for Tex. Pen, Code 9.22, Necessity Defense.
If the trial court committed reversible arror in failing to grant
this request. Direct Appeal uas presented to the Twelfth Court
of Appeals, Tyler Texas. Convictions uere affirmed by that Court.
Writ of habeas corpus under Code Df Criminal Procedure, Article
11.07 uas filed by me April 27,2016 in the convicting court,
uhich uas sent to the Court of Criminal Appeals and denied uithout written order on 3una 29,2016. A Petition for Writ of habeas
corpus: 2B U.S.C. § 2254 uas filed in the United States District

4

Case: 19-40231

Document: 00515021235

Page: 9

Date Filed: 07/02/2019

Court, for the Eastern District of Teaxs, Tyler Division on Duly
25,2016. (Dkt ,#t-) Case# 6:1 6-cv-01 041 -RC-3DL uihich uas dismissed
with prejudice on Faruary 25,2019. <Dkt.#52). In this case the
Respondent uas Ordered to SHOW CAUSE September 13,2016 (Dkt.#10).
Response to 1_ uas filed January 13,2017 (DKT#19). My Reply to
the Response uas filed May 12,2017 (Dkt#27) uith a Motion for
Correction or Modification, and a Motion for evidentiary hearing,
(Dkt#25-26). Those Motions uers denied, (Dkt#2B) 05/16/2017.
Report and Recommendation uas filed by the Magistrate on 11/2B/2017
(Dkt#31). Objection to the Report and Recommendation uas filed
by me on 01/30/2Q1B (Dkt#36). Motion for Leave to file Motion
Requesting Discovery uas filed by mB on 08/T4/201B (Dkt#37-#3B).
Order denying 37 & 38 uae filed on 08/20/2018 (Dkt#42). Motion
to vacate Order denying 3£ ft J3EJ. uas filed by me on 08/28/2018
(Dkt#45). Order of Dismissal. Ordered that the habeas action
is dismissed uith prejudice. Ordered that petitioner Staples
is denied a Certificate of Appealability

bus

sponta. Ordered

that any end all Motions that may be pending in this action are
hereby denied uas filed on 02/25/2019 (Dkt#51). Final Judgement
that Petitioner's case is dismissed uith prejudice uas filed
on 02/26/2019 (Dkt#52). Notice of Appeal uas filed by me on
03/14/2019 (Dkt#53). Motion for Findings of Facts and Conclusions
of Lau uas filed by mB on 03/14/2019 (Dkt#54). Order-denying
!i waa filed 03/19/2019 (Dkt#55).

5

Case: 19-40231

Document: 00515021235

Page: 10

Date Filed: 07/02/2019

STATEMENT OF FACTS
On May 25,2010 I, Chester Staples, called Tracy Pclley and told
him I tiiaa coming to get the mower that he would nt finish paying
for. When I got to his house end backed my haul trailer up to
the mower, hia machanic went inside and told him I was there
to get the mower. He came out with a psitol and walked up snd
hit mw, breaking my jaw. tile both started shooting. He was shot five
times and 1 was shot twice. He was pronounced dead at the scene.
I was life flighted to a hospital in Tyler, Texas.
SUMMARY OF ARGUMENT
The State of Texas sought to charge me with murder end unlawful
poss. of a firearm by a felon, and presented this to the grand
jurprs. (exhibit #1 attached) I was indicted on both counts and
proceeded to trial by jury. The indictment listed nolArticle
of the Texas Penal Code, but did in fact return (exhibit #1).
Judgement of Conviction by Jury (exhibit #2 attached) shows
Offense for which defendant was convicted: CT1 MUR0ER / CT2:
Uni Poss. Firearm by Felon. Charging Instrument: INDICTMENT
Statute of Offense: CT1: 19.02(b)(1)PC / CT2: 46.02(a) PC. Degree
of. Offense; CT1 : 1St DEGREE FEL0NY-ENH 25 to life / CT2: 3RD
DEGREE FEL0NY-ENH 25 to life.
The "Charge of the Court" included on instruction on Section
46.02 of the Texas Penal Code, [to wit] Unlawfully Carrying tileapona.
This ie a Class A misdemeaner, except es provided by Subsection(c).
"Charge of the Court" (exhibit #3 attached).

6

Case: 19-40231

Document: 00515021235

Page: 11

Date Filed: 07/02/2019

The Court denied a timely requeeted instruction on "Necese&ty
Defense", (exhibit #4 attached).
"Charge of the Court" contained en instruction on a criminal
act thBt uae not presented to the grand jury for indictment.
That being "Unlawfully Carrying a Weapon" (Tex. Pen. Code 46.02).
Refer to exhibits #1 and #3. Counael was ineffective for not
objecting to the instruction of (Tex. Pen. Code 46.02) being
presented to the jury.
The Court abused it's discretion by not dismissing jurors when
Counsel had entered a Challenge for Cause. Counsel presented
to the Court that jurorB challenged had made it plainly clear
that they could not be fair.
Counsel was ineffective for not requesting an instruction on
the leaser-included offense of manslaughter.
The ORDER OF DISMISSAL from the District Court was based an state
;

habeas court's factual findings, both implicit and explicit.
Stating =that the Federal Court is bound by the state habeas court's
factual findings, both implicit and explicit. I present to this
Court the CLERK"S SUMMARY SHEET in Trial Court Writ No. 30979A of the Anderson County Third Judicial District Court, (exhibit
#5 attached). The Clerk's Summary Sheet will ahow that there
were no Findings end Conclusions filed.
The actions and errors of the Court and Counsel presented in
the petitions for post-conviction relief will show that defendant's
Constitutional Rights have been violated. ThB 5th, 5th, and 14th

7

Case: 19-40231

Document: 00515021235

Page: 12

Date Filed: 07/02/2019

Amendments of the United SteteB Constitution, thst ere guaranteed.
Leading to an unreasonable outcome at trial. Defendant prays
this Court grant the Certificate of Appealability.
STANDARD OF REVIEW
1. "A defendant ia entitled to every defensive issue raised by
the evidence, regardless of whether it is strong, feeble, onimpeached, or contridicted, even if the Court thinks that the test­
imony is not worthy of bBlief. (Halters v. State, 247 5.Id.3d
204,209 (Tex.Crim.App.2007). This rule is designed to insure
that thB jury, not the judge, will decide the relative credibility
of the evidence." (Granger v, State, 0 S.ld. 3d 36,38 (Tex.Crim.App.
1999). "If evidence is such that a rational juror could expect
it as sufficient to prove a defensive element, it is said to
raise that element. "ID". Thus if the issue is raised by any
party, refusal to submit requested instruction is an abuse of
discretion." (Darty v. State, 994 S.ld. 2d 215,218 (Tex.App.SanAntonio 1999)'(United States Court of Appeals for The Fifth Circuit,
960 F.2d 426 (1992). Crim.Law&Proc.>3ury Instr.>Request to Charge.
In order for a defendant to be entitled to an instruction, any
evidence in support of the defensive theory must be sufficient
for a reasonable jury to rule in favor of defendant on that theory.
The refusal to give a requesred jur$ instruction constitutes
error if the instruction (1) was substantially correct; (2> was
not substantially covered in thB charge given to thB-jury; and
(3) concerned an important issue so that the failure to give

B

Case: 19-40231

Document: 00515021235

Page: 13

Date Filed: 07/02/2019

It seriously impaired the defendant's ability to present a given
defense.
ARGUMENT
I'm asking this Court to decide whether it is a reversible error
for the trial Court's refusal to present to the jury the requested
instruction on the "Necessity Defense". I believe that it is
substantially presented in previous cases that it is for the
jury to decide whether the instruction applies to the present
case. If so, has the guaranteed right to due process been violated?
STANDARD OF REVIEW
2. Amendment [V] Constitution of the United States: No person
shall be held to Bnsuer for a capitol. or other wise infamous
crime, unless on e presentment or indictment of a grand jury,
except in cases arising in the land or naval farces, or in the
mi litis, when in actual service in time of war or public danger;
nor shall any persom be subject for the Berne offense taibe twice
put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of the law;
nor shall private property be taken for public use, without just
compensation.
ARGUMENT
I am asking the Court to decide whether the convicting Court
committed Plain Error at trial by presenting to the jury, via,
"Charge of the-Court", an instruction on "unlawfully Carrying

9

Case: 19-40231

Document: 00515021235

Page: 14

Date Filed: 07/02/2019

a Weapon'.', (Tex.Pen.Code § 46.02), uhBn it wee not presented
to the grand jury for indictment. Thus, resulting in a violation
of Amendment [V] of the Constitution of the United States.
STANDARD DF REVIEW
3. Texas Criminal Procedure-Code and Rules: Article 12.02 Misde­
meanors (a) An indictment or information for any Class A or Class
B misdemeanor may be presented with in two years from the date
of the offense, and not afterward.
ARGUMENT
Was counsel ineffective for not objecting to the instruction
of (Tex. Pen. Code 46.02), "Unlawfully Carrying a Weapon". This
Btatute is a Class A misdemeanor which had hot been presented
to the grand jury for indictment and the statute of limitations,
being two years, had expired on. The comission of the offense
at hand was committed on 05/25/2010. The indictment was presented •
on 07/12/2012. Counsel should hBvs objected to the presentation
of an instruction that was inadmissable, pursuant to the Texas
Criminal Procedure-Code and Rules. Would this lack of action
be considered a violation of Amendment [Vj] Constitution of the
United States?
STANDARD OF REVIEW'
4. A jury instruction that constructively amends a grand jury
indictment constitutes per ae reversible error because such an
instruction violates a defendant's Constitutional Right to be
tried only on charges presented in a grand jury indictment and

10

Case: 19-40231

Document: 00515021235

Page: 15

Date Filed: 07/02/2019

creates the possibility that the defendant may have bean con­
victed on grounds not alleged in the indictment. 5tirone v. U.S.
212,217-18, 00 S.Ct. 270,273-74 (1960) Peel, 837 F.2d 979). A
defendant has the right to be tried solely dnrthe charges present­
ed in an indictment returned by the grand jury. Once the grand
jury has spoken, the defendant goes to trial prepared to defend
these charges, and the government is bound to prove the essential
elements of the charges specified in the indictment. See United
States v. Texier, 474 F.2d 369,371 (5th Cir. 1973). The rules
of the game are fixed prior to the judges charge to the jury.
(United States Court of Appeals for therEleventh Cir. 1973)
By instructing the jury on the elements of a crime that was not
alleged in the indictment, the District Court committed pro se
reversible error. Under-.U.S. Constitutional Amendment [V] appellant
had the right to answer for, and be convicted of, the crimes
charged in the indictment.
ARGUMENT
The trial court judge provided the jury with a partial instruc­
tion on seif-defense, (Tex. Pen. Code 9.31(5)(a) stating that:
The use of force against another is not justified: if the actor
sought an explanation from a discussion with the other person
while the actor was carrying a weapon in violation of (Tex.Pen.
Code 46.02). This instruction basicially modified the grand jury's
indictment, effectively amending it, by presenting to the jury
an element not presented to the grand jury for indictment.

11

Case: 19-40231

Document: 00515021235

Page: 16 ^ Date Filed: 07/02/2019

Resulting in a violation of Amendment [V] of the Constitution
of the United Stetee.
STANDARD OF REVIEW
(U.S.ex-rel. Barnard v. Lane, B19 F.2d 79B (7th Cir. 197B).
Counsels failure to request a jury instruction on a lesser-induced
offense uas ineffective assistance of counsel. Prou v. cU.S>s
199 F.3d 37,3B (1st Cir. 1999). When an attorney fails to raise
an important obvious defense without any imaginable strategic
or tactical reason for omission, his performance falls below
the standard of proficient representation that the Constitution
demands.
ARGUMENT
An instruction on a lessor-included offense of manslaughter;
(Tex.Pen.Code 19.04) should have been requested. During voir
dire, ((Reporter's Record) R.R. vol. 3 page 33) the Btete present-,
ad to the Venire Persons the possibility of whats called a lesser
included offense, manslaughter. Tex.Pen.Code 19.04(a) Manslaughter:
A person commits an offense if he recklessly causes the death
of an individual, (b) an offense under this section is a felony
of the secon degree. Heat Df Passion as defined in Blacks Law
Dictionary: Rage, terror or furious hatred suddenly aroused by
somB immediate provocation, usually another person's words or
actions. At commom law, the heat of passion could serve as a
mitigating circumstance that would reduce a murder charge to
manslaughter. (Tex.Pen.Code 19.02) Murder (a)(2) cont. (d)

12

Case: 19-40231

Document: 00515021235

Page: 17

Date Filed: 07/02/2019

At the punishment phese of e trial, the defendant may raise the
iBBue

bb

to whether he caused the death under the immediate in­

fluence of Budden passion arising from an adequate cause. (Tex.
Pen.Code 19.02(1) "Adequate Cause" means cause that uould commonly
produce a degree of anger, rage, resentment or terror in a person
of ordinary temper, sufficient to render the mind incapable of
cool reflection. (2) "Sudden Passion" means passion that was
directly caused by and rising out of provocation by the individ­
ual killed, which passion arises at the time of the offense and
is not solely the result of former provocation.
All the elements of thiB line of defense were presented at trial.
The trial transcript will reflect that the testimony of three
witnesses was consistent and presented the evidence that I was
attacked by the deceased at' the time of the offense. Along with
the statements from me at the hospital that sudden passion /
heat of passion is supported by the evidence.
STANDARD OF REVIEW
(Strickland v. Washington, 466 U.5. 66B (1984). "Counsel has
I

a duty to make a reasonable investigation or to make a reasonable
decision that makes a particular investigation unnecessary" "Id"
466 U.S. 668,694 104 S.Ct. 2052,2068, L.Ed, 2nd 674 (1904).
A defendant is entitled to a new trial if he can show (1) that
trial counsel's performance was defective; and (2) a reasonable
probability that, but for the deficient performance, the outcome
of the proceeding would have been defferent. A petitioner can

13

s-

Case: 19-40231

Document: 00515021235

Page: 18

Date Filed: 07/02/2019

meet this standard by ahouing that counsel failed to conduct
(inter alia) adequate pretrial investigation. (Bauer v. Quarterman,
U.S. court of Appeals for the Fifth Cir. 497 F.ed 459 (2005).
Crim. Lau & Proc. > Habeas Corpus > Revieu > Specific Claims
> I.A.C. A defendant's Sixth Amendment Rights are violated if
counsel's assistance uas deficient and the defendant uas therefore
prejudiced. An attorney has a duty to independently investigate
the charges against his client. There must be a reasonable amount
of pretrial investigation. (Sincox v. U.S. 517 F.2d B76 Fifth
Cir. 197B). We find that Counsel's failure to request an instruction
amonts to the abdication of Counsel's duty to make informed tacti
cal choices at trial.
ARGUMENT
Pre-trial investigation uould have sufficiently revealed to Coun­
sel that manslaughter uas applicable in this case, And also,
one glance at the indictment uould have bean all it took for
counsel to see that defendant had not been indicted on a charge,
that uas presented to the Jury through "Charge of the Court"
(Tex.Pen.Code 46.02). Therefore should not have been presented
to the jury.
CONCLUSION
For the reasons stated, I ask the Court to grant a Certificate

‘

of Appealability. So that these issues may be resolved and funda­
mental justice ulll prevail.
DATED this X&

day of Dune 2019.

Respectfully submitted,

CSt^lS^I 853049

14

No .

IN THE
SUPREME COURT OF THE UNITED STATES

Chester Alan Staples pro se,

Petitioner

US
The United States Court of Appeals
for the Fifth Circuit

EXHIBITS SUPPORTING REQUESTED CERTIFICATE OF APPEALABILITY

Chester A. Staples
#01B 5 3049
264 FM 3 4 7 B
Huntsville, TX 77320

Jrfr'
pro s e

e: 19-40231

Document: 00515021255

Page: 1

Date Filed: 07/02/2019
-A

.-tbvJRTo^,

MURDER; UNL POSS FIREARM BY FEjCdft Received
First Degree Felony; 3rd Degree Felony - . .
JUL 02 20!}
Enhanced Habitual 25 to Life.

••
%

{5

CAUSE NO. .303*19

0*

y-

IN THE NAME AND BY AUTHORITY OF THE STATE OF TEXAS
The Grand Jurors for the County of Anderson, State of Texas,
duly selected, impaneled, sworn, charged and organized as such as
the July Term, A.D. 2012, of the Third Judicial District Court of said
County, upon their oaths present in and to said Court, that CHESTER
ALAN STAPLES, on or about the 25th day of May, 2010, and before
the presentment of this indictment, in said County and State, did then
and there,
COUNT1
intentionally or knowingly caused the death of an individual, namely,
Tracey Polley, by shooting him with a firearm; or
with intent to cause serious bodily injury to an individual, namely,
Tracey Polley, commit an act clearly dangerous to human life that
caused the death of said Tracey Polley, by shooting him with a
firearm.;
COUNT2
having been convicted of the felony offense of Tampering with or
Fabricating Physical Evidence on the 11th day of April, 2001, in
cause number 26353 in the 3rd District Court of Anderson County,
Texas, in a case on the docket of said Court and entitled The State of
Texas vs. Chester Allen Staples, Intentionally or knowingly possess a
firearm after the fifth anniversary of the defendant's release from
confinement following conviction of said felony at a location other
than the premises at which the defendant lived, to-wit: 4435 Hwy 155,
Palestine, TX.

INDICTMENT (FILE MARKED 07.12,2012)

APPENDIX

G

47

*

10-40931

nnrnmpnfnnm^QpiPSR

Pane:?

Date Filed: 07/02/2019

'7 ~
COURT 1,2
Cars No. 30979
Incident no./trn: 9177563549
1
in
T
he
3
rd
JUDICIAL
district
9
9
Court ••
S
<
9
ANDERSON COUNTY, TEXAS
9
9
9
i

The State or Texas

v.
CHESTER ALAN STAPLES
STATE ID No.: TX0109492307

JUDGMENT OP CONVICTION BY JURY;
Judge Presiding:

Boa. Pun Poster Fletcher

Attorney for Stote: Stanley 8okolowald
Offcnac for which Defendant Convicted;
CT 1: MURDER
CT 2; PNL POSE FIREARM BY FELON
Charging Instrument:
INDICTMENT

Date Judgment
Entered:
Attomey for
■ Defendant',

4/12/2013
MELVIN WHITAKER

Statute for OfTenae:
CT It 19.02(b)(1) PC
CT 2:46,04 (a) PC

7
\ RUED FOR RECORD
} At *t.) is .o'dockftm
APR 1 8 7fm

Date of Offenae:

I

May 25.2010

Plea to Olfenac:

Degree of Offenae:

.

CT 1: 1ST DEGREE PBLONY-ENH 25 to LIFE
CT 2t 3RD DEGREE FELONY-ENH 25 to LIFE

JAN|C^ STAPLES,

DisOiti Clerk, Anderson County.IX
Dtp
by.

NOT GUILTY
Findings on Deadly Weapon: ,
Verdict of Junr.
YES,
A FIREARM« CT 1 ONLY
GUILTY
Plea to 2nd Enhancement/ Habitual ;s..
Plea to 1*> Enhancement
TRUE
TRUE
Paragraph:
Paragraph:
Findings
on
2M
;
Findings on 1" Enhancement
Enhancement/Habitual
Paragraph:
TRUE
TRUE
Paragraph:
Date Sentence Imposed:
Punished Assessed be;
Date Sentence to Commence:
JURY
4/12/2013
4/12/2013
Punishment and Place 55 YEARS INSTITUTIONAL DIVISION, TDCJ-CT 1
!
of Confinement:
SO YEARS INSTITUTIONAL DIVISION. TDCJ-CT 2
i
THIS SENTENCE SHALL ItUH CONCURRENTLY.
I
□ SENTENCE OF COWIWBMBHT WWWtHPKP, DEFENDANT PLACED ON COMMUNITY SUPERVISION FOR N/A .
Court Costa: Restitution:
Reatitution Payable to:
ppe;
SN/A
$279
$N/A
□ VICTIM (aee below) □ AGBHCT/APERT (aee below)
Sex Offender Kegletiatiou Requirement* do not apply to the Defendant. Tex. Code Crim. CROC, chapter 62.
The age of the victim at the time of the offenae was N/A .
Time
Credited:

If Defendant te to nerve eentcnce In TDCJ. enter Ineercrref icm nerfade In ehmnpleeieal outer.
From d/3/3010 to 6/18/2010 Fiom 1.7-13 to 4-13.13 Prom
to
From
From
to
to
From
to
If Defendant it to eerve aentance in county fall ar is given credit toward line end mil, rater dava credited helnw.

N/A DAYS

NOTES: N/A

AH perttoeat lafanaeMea. imn ead

*

•aw MaM iWw m iMopmlli late Ilia laafaage of tte|eam»est Mav ky nfcmiM,

This cause was called for trial in Anderson County, Texas. The State appeared by bef District Attorney.
Counsel / Waiver of Connect (select anal
IS Defendant appeared in person with Couneel.
16 (Exhibit #2}
^
D Defendant knowingly, intelligently, and voluntarily waived the right to representation by counsel In writing in open court.
:
True rod cornea copy ofa
4
. document entile at
Andenoe County,Texas
Mima
Janice Styleo, Dfatricl. Ctorfc Pair i «rr
Pete, \....cd'i.lo.....
*

V*

Document: QQ515Q21255

Page: 3

Date Filed: 07/02/2019
•1
I

CAUSE NUMBER 30979
THE STATE OF TEXAS
VS.

third jmmu
biigai&dK
j*

CHESTER ALAN STAPLES

ANDERSONC^^jl^AS
tesStfi COUNTY. TX 1
CHARGE OF THE COURT
Jt

LADIES AND GENTLEMEN OF THE JURY:
•••

i

i

^
defendant, CHESTER ALAN STAPLES, stands charged by indictment with the
offenses of Murder - Count 1 and Unlawful Possession of Firearm - Count 2. The oflfenagp ar$.
alleged to have been committed on or about the 25,h day of May, 2010 m'Anderwn£bunty,llxas3
§!»'.The defendant, CHESTER ALAN STAPLES, has entered a pleajof “not giaftyi' J ^

1;

1.

— lu

l?! s | .

Section 19.02 ofthe Texas Penal Code provides that a person comfriits the ol^isWfnj&dern
ifhe; (J) intentionally or knowingly causes the death ofan individual; or (1) intends ttffeause sStouS*'
bodily injury and commits an act dearly dangerous to human life thatn causes thfe death of an
individual.
S
Section 46.04ofthe Texas Penal Code provides that a person coipfnits the offense ofunlawful
possession offirearm ifhe has been convicted ofa felony and possesses a firearm: (1) after conviction
and before the fifth anniversary ofhis release from confinement following conviction ofthe felony or
his release from supervision under community supervision, parole; or mandatory supervision,
whichever is later; or (2) after the period described above, at any location Mother than the premises at
which he lives.
li
Section 46.02 ofthe Texas Penal Code provides that a parson conimits the offense ofunlawful
carrying weapon ifhe intentionally, knowingly, or recklessly carries on or |ibout his person a handgun
ifhe is not: (1) on his own premises or premises under his control; or (2) irjpide ofor directly en route
to a motor vehicle that is owned by him or under his control.
2.

i

“Bodily injury” means physical pain, illness, or any impairment of physical condition.
Deadly Weapon” means a firearm or anything manifestly designed, made, or adapted for the
purpose of inflicting death or serious bodily injury, or anything that in the manner of its use or
intended use is capable of causing death of serious bodily injury.
*,
3

“Firearm” means any device designed, made, or adapted to expel a projectile through abarrel
Court's Charge, State oTTcxas vs. CHESTER ALAN STAPLES

1

17 (Exhibit #3)
?
i

Case: 19-40231

Document: 00515021255

Page: 4

Date Filed: 07/02/2019
i

.

>

s
{

DEFENDANT’S REQUEST FOR “NECESSITY DEFENSE” IN CHARGE
•

DEFENDANT requests an issue in the court’s charge on Penal Code922 that Chet Staples on die date of the death
of Policy reasonably believed that his conduct in carrying a handgun and shooting Eolley was immediately
necessary to avoid imminent harm to himself from Potiey, and that die desirability mid urgency of avoiding the
harm clearly outweighed according to ordinary standards of reasonableness the harnjs sought (being shot and killed
by Poliey) to be prevented on the occasion in question,
Request granted:.

Request denied:.

k
110,2013

i
i

FILED FORjRECORD
At

'•

o’clock Q.

.

APR 1^2013
JANICE STAPLES

District Cterk, Anderson County, TX
Dap.
by*

t

1B (Exhibit #4)
DEFENDANTS REQUEST FOR "NECESSITY DEFENSE" IN CHARGE (FILE MARKED 04.11.2013)
t

79

1
i

Case: 19-40231

Document: 00515021255

Page: 5

Date Filed: 07/02/2019

APPLICATION FOR WRIT OF HABEAS CORPUS
EX PARTE
CHESTER ALAN STAPLES
ANDERSON COUNTY
THIRD JUDICIAL DISTRICT COURT
CLERK’S SUMMARY SHEET
TRIAL COURT WRIT NO. 30979-A
APPLICANT’S NAME: CHESTER ALAN STAPLES
(As reflected on Judgment)
OFFENSE: COUNT 1 MURDER: COUNT 2 UNL POSS FIREARM BY FELON
(As described on Judgment)
CAUSE NO. 30979
(As reflected on Judgment)
SENTENCE: COUNT 1 55 YEARS: COUNT 2 50 YEARS TDCJ
(As described on Judgment)
TRIAL DATE: 04.12.2013
(Date upon which sentence was imposed)
JUDGE’S NAME: PAM FOSTER FLETCHER
(Judge presiding at Trial)
APPEAL NO:
(If Applicable)
CITATION TO OPINION; N/A
(If Applicable)
HEARING HELD:
. YES__ X
(Pertaining to the Application for Writ)

NO

FINDINGS & CONCLUSIONS FILED:.
(Pertaining to die Application for Writ)
RECOMMENDATION:.____ GRANT
(Trial Court's recommendation regarding Application)

YES

X
DENY

JUDGE’S NAME: PAM FOSTER FLETCHER
(Judge presiding over habeas proceedings)

19 (Exhibit #5)

NO
X

NONE

*

y

Case: 19-40231

•'j

Document: 00515021255

Page: 6

Date Filed: 07/02/2019

CERTIFICATE OF SERVICE
I certify that I sent today two copies of Petitioner's Request
for a Certificate of Appealability and Brief in support, by
first-class U.S. Msilto:
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
F. EDUARD HEBERT BUILDING
600 S. MAESTRI PLACE
NEU ORLEANS, LOUISIANA 70130-340B

^Tt/A/e

Dati

uG.Iom
>

Chester Staples /'pro se
#01B53049
264 FM 347B
Huntsville, Tx 77320

20

-» 4

No .

IN THE
SUPREME COURT OF THE UNITED STATES

CHESTER ALAN STAPLES
Appellant
V
THE STATE OF TEXAS
Appellee
NO. 12-13-00126-CR
COURT OF APPEALS
TWELFTH COURT OF APPEALS DISTRICT OF TEXAS
TYLER,TEXAS

MEMORANDUM OPINION

Chester A. Staples
#01853049
264 FM 347B
Huntsville TX 77320
pro se

■fi

COURT OF APPEALS
TWELFTH COURT OF APPEALS DISTRICT OF TEXAS
JUDGMENT
SEPTEMBER 17,2014
NO, 12-13-00126-CR
CHESTER ALAN STAPLES,
Appellant
V.
THE STATE OF TEXAS,
Appellee
Appeal from the 3rd District Court
of Anderson County, Texas (Tr.Ct.No. 30979)
THIS CAUSE came to be heard on the appellate record and briefs filed
herein, and the same being considered, it is the opinion of this court that there was no error in the
judgment.
It is therefore ORDERED, ADJUDGED and DECREED that the judgment
of the court below be in all things affirmed, and that this decision be certified to the court
below for observance.
-< ' '

Brian Hoyle, Justice.
Panel consisted o/Worthen, C.J., Griffith, J., and Hoyle, J.

APPENDIX H

NO. 12-13-00126-CR
IN THE COURT OF APPEALS
TWELFTH COURT OF APPEALS DISTRICT
TYLER, TEXAS
CHESTER ALAN STAPLES,
APPELLANT

§

V

§

JUDICIAL DISTRICT COURT

THE STA TE OF TEXAS,
APPELLEE

§

ANDERSON COUNTY, TEXAS

APPEAL FROM THE 3RD
,

MEMORANDUM OPINION
Chester Alan Staples appeals his convictions for murder and unlawful possession of a
firearm, for which he was assessed sentences of imprisonment for fifty-five years and fifty years,
respectively. Appellant raises one issue challenging the trial court’s refusal to submit a jury
instruction on the defense of necessity. We affirm.

Background
Appellant was charged by indictment with murder and unlawful possession of a firearm
and pleaded “not guilty.” The matter proceeded to a jury trial.
The evidence at trial showed that on May 25, 2010, Appellant went to the home of the
victim, Tracey Polley, to retrieve a lawn mower that he had sold Polley and for which he had
received only partial payment. The two had previously argued about the mower over the phone,
and Polley told Appellant that he would shoot him if he came to get it. Appellant, a convicted
felon, obtained a handgun before going to the residence.
As Appellant was preparing to load the mower, Polley came out of the house with a
loaded handgun. After a brief argument outside the residence, the two men opened fire on each
other. Appellant was shot through the hand and in the eye. Polley was shot five times and died
before paramedics arrived. The evidence is conflicting as to who fired first.

1

The trial court’s jury charge included an instruction on self-defense. Appellant requested
an additional instruction on the defense of necessity, but the trial court denied his request.
Ultimately, the jury found Appellant “guilty” of murder and unlawful possession of a firearm.
The jury assessed his punishment at imprisonment for' fifty-five years and fifty years,
respectively. This appeal followed.
Necessity Defense
In his so|e issue, Appellant argues that the trial court erred in refusing to submit a jury
instruction on the-defense of necessity. The State disagrees, contending that Appellant is not
entitled to an instruction on the defense because the harm was not imminent when he armed
himself with the firearm, and because he placed himself in a dangerous situation.
Standard of Review
■ “A defendant is entitled to an instruction on every defensive issue raised by the evidence,
regardless of whether the evidence is strong, feeble, unimpeached, or contradicted, and even
when the trial court thinks that the testimony is not worthy of belief.” Walters v. State, 247
S.W.3d 204, 209 (Tex. Crim. App. 2007). “This rule is designed to insure that the jury, not the
judge, will decide the relative credibility of the evidence.” Granger v. State, 3 S.W.3d 36, 38
, (Tex. Crim. App. 1999). To raise a defensive issue, the evidence must raise each element of the
defense. Stefanoff v. State, 78 S.W.3d 496, 499 (Tex. App-Austin 2002, pet. ref d).

“If

evidence is such that a rational juror could accept it as sufficient to prove a defensive element,
then it is said to ‘raise’ that element.” M

.• r*-

“When evidence from any source raises a defensive issue. and the defendant properly
. requests,a-jury^charge on that issue, the trial court.must submit thsTssue to the jury:” Muniz v.
State, 851 S.W.2d 238, 254 (Tex. Crim. App. 1993). “Thus, if the issue is raised by any party,
refusal to submit, the requested instruction is (an abuse of discretion.” Darty v. State, 994
S.W.2d 215, 218 (Tex. ,App.-San Antonio 1999, pet. refd). When reviewing a trial court’s
refusal to submit a defensive instruction, we view the evidence in the light most favorable to the
requested instruction. Bufkin v. State, 207 S.W.3d 779, 782 (Tex. Crim. App. 2006).
Applicable Law
The Texas Penal Code provides that

2

N□ .

IN THE
SUPREME COURT OF THE UNITED STATES

Chester Alan Staples
Appellant
v .
The State of Texas
Appellee

FROM THE COURT OF CRIMINAL APPEALS
CAPITOL STATION, AUSTIN,TEXAS
DENIAL OF MOTION FOR REHEARING.

Chester A. Staples
#01 853049
264 FM 3478
Huntsville, TX 77320

pro s e

• *..

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
p O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

n
5/20/2015

.^
PD-1354-14
STAPLES, CHESTER ALAN Tr.-Ct.No. 30979
On this day the Appellant’s motion for rehearing has been denied.
PRESIDING JUDGE KELLER WOULD GRANT
Abel Acosta, Clerk
CHESTER ALAN STAPLES
TDC# 1853049
ESTELLE UNIT
264 FM 3478
HUNTSVILLE, TX 77320

APPENDIX I

